                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1-12060034                                                                   Page 1 of 1




          We received an anonymous allegation 1 that a university department 2 was improperly paying
          employees under an NSF award 3 through dummy companies, and a subcontractor4 on the award
          was acting inappropriately. 5 We found insufficient evidence to substantiate the allegation and,
          we have closed this investigation.




NSF OIG Form 2 (11 /02)
